LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

April 2, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-7341:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

JAMES CODDINGTON V. JAMES FARRIS, WARDEN, OKLAHOMA
STATE PENITENTIARY

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Oklahoma
Criminal Defense Lawyers Association on April 2, 2021, I caused service to be made
pursuant to Rule 29 and the Temporary Order of April 15, 2020 on the following
counsel for the Petitioner and Respondent:
PETITIONER:
John Carlson
Ridley McGreevy & Winocur
303 16th St., Suite 200
Denver, CO 80202
720-530-5117
jtcarlson@gmail.com

RESPONDENT:
Caroline Elizabeth Jane Hunt
Oklahoma Attorney General's Office
313 NE 21st Street
Oklahoma City, OK 73105
405-521-3921
caroline.hunt@oag.ok.gov

This service was effected by depositing one copy of the Brief of Amicus Curiae
Oklahoma Criminal Defense Lawyers Association in an official “first class mail”
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 2nd day of April 2021.

